TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  While Actions Have Been Taken to Address
                  Worker Misclassification, an Agency-Wide
                  Employment Tax Program and Better Data
                                 Are Needed



                                         February 4, 2009

                              Reference Number: 2009-30-035




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 February 4, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – While Actions Have Been Taken to Address
                               Worker Misclassification, an Agency-Wide Employment Tax Program
                               and Better Data Are Needed (Audit # 200730001)

 This report presents the results of our review to evaluate the effectiveness of actions the Internal
 Revenue Service (IRS) had taken and planned to take to address the misclassification of
 employees as independent contractors. This audit was part of our risk-based audit coverage and
 was included in the Treasury Inspector General for Tax Administration Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 The misclassification of employees as independent contractors is a nationwide issue affecting
 millions of workers that continues to grow and contribute to the tax gap.1 The IRS has taken and
 plans to take many positive actions to address worker misclassification. However, it does not
 have an agency-wide employment tax program to coordinate the decision-making process and
 efforts among its business divisions. The limited data available indicates that the worker
 classification issue is growing significantly. When an employee is misclassified, tax revenues
 are not reported or paid and the burden of uncollected taxes shifts to other taxpayers.




 1
   The tax gap is the difference between the amount of tax that taxpayers should pay and the amount that is paid
 voluntarily and on time. It is composed of underreporting of tax liabilities on tax returns, underpaying taxes
 reported on filed returns, and nonfiling of required tax returns altogether or on time.
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed



Synopsis
IRS research indicates that employers often misclassify workers as independent contractors for
various reasons. They might do so unintentionally because of a lack of knowledge or because of
poor advice received. Some employers might have Section 5302 protection and, as a result, can
legally treat workers as independent contractors who would otherwise be employees. Finally,
there are employers who deliberately misclassify workers to cut costs and to gain a greater
competitive edge. These employers avoid paying their share of employment taxes as well as
other expenses such as workers’ compensation, unemployment insurance, and other benefits.
Misclassifying employees as independent contractors and not incurring the related costs can give
these employers a competitive advantage over employers who treat their workers as employees.
The IRS’ interest in this issue is not to reclassify workers from independent contractors to
employees. Rather, it is to ensure that employers are making the proper determination and that
workers are being treated appropriately. The IRS has dedicated resources to educate taxpayers
regarding employee classification as well as to enforce tax laws related to this issue. Despite the
many positive actions that the IRS has taken and plans to take to address the misclassification of
employees as independent contractors, more needs to be done.
IRS business divisions communicate and coordinate with each other regarding employment tax
issues. However, there is no single point of accountability for employment tax below the IRS
Deputy Commissioner level, and there is no agency-wide strategy to coordinate the decision-
making process and efforts among the divisions.
Misclassified workers are a significant portion of the employment tax gap. However, because
studies of the impact of worker misclassification on the tax gap are over 20 years old, the IRS
does not know the size of the problem today and is unable to determine the overall effectiveness
of its actions to address this issue. The IRS’ most recent estimate3 of the tax gap is
approximately $345 billion. The employment tax portion of this figure due to underreporting is
estimated to be about $54 billion with an estimated $1.6 billion being attributable to worker
misclassification. However, the $1.6 billion estimate is based on Tax Year 1984 data. The IRS
conducted a preliminary analysis of Fiscal Year 2006 operational and program data and found
that underreporting attributable to misclassified workers is likely to be markedly higher than the
$1.6 billion.



2
  Section 530 of the Revenue Act of 1978, Pub. L. No. 95-600, 92 Stat. 2763, 2885-86 (current version at Internal
Revenue Code Section 3401 note).
3
  The National Research Program was a comprehensive compliance study of Tax Year 2001 individual income tax
returns that was completed in Calendar Year 2006. It estimated the overall gross tax gap for Tax Year 2001 to be
$345 billion, including $285 billion from underreporting, $33 billion from underpaying, and $27 billion from
nonfiling.
                                                                                                                    2
                     While Actions Have Been Taken to Address Worker
               Misclassification, an Agency-Wide Employment Tax Program and
                                    Better Data Are Needed



Recommendations
We recommended that the Deputy Commissioner for Services and Enforcement develop and
implement an agency-wide employment tax program to address the issue of worker classification
to improve coordination among the business divisions, improve compliance, and reduce the tax
gap. The Deputy Commissioner for Services and Enforcement should also consider conducting a
formal National Research Program reporting compliance study to measure the impact of worker
misclassification on the employment tax gap.

Response
IRS management agreed with all of our recommendations. The Director, Specialty Programs,
Small Business/Self-Employed Division, will coordinate an effort with all business divisions, the
Criminal Investigation Division, and the Office of Chief Counsel to develop an agency-wide
employment tax plan that addresses worker classification along with other employment tax
issues. The Director, Specialty Programs, Small Business/Self-Employed Division, will also
work with the Research function to coordinate a study that addresses worker classification and
other employment tax issues. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                3
                           While Actions Have Been Taken to Address Worker
                     Misclassification, an Agency-Wide Employment Tax Program and
                                          Better Data Are Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Taken and Plans to Take Many
          Positive Actions to Address Worker Misclassification ................................Page 3
          The Internal Revenue Service Does Not Have an Agency-Wide
          Employment Tax Program to Address Worker Classification .....................Page 5
                    Recommendation 1:..........................................................Page 7

          The Internal Revenue Service Has Limited Data Regarding the Overall
          Impact of Worker Misclassification..............................................................Page 8
                    Recommendation 2:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
              While Actions Have Been Taken to Address Worker
        Misclassification, an Agency-Wide Employment Tax Program and
                             Better Data Are Needed




                        Abbreviations

CSP               Classification Settlement Program
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed




                                            Background

The misclassification of employees as independent contractors is a nationwide issue affecting
millions of workers that continues to grow and contribute to the tax gap.1 When an employee is
misclassified, tax revenues are not reported or paid and the burden of uncollected taxes shifts to
other taxpayers.
Social Security and Medicare taxes are paid to the Department of the Treasury from two primary
sources: 1) employment taxes consisting of amounts withheld from employees and matching
amounts paid by employers; and 2) self-employment taxes. Employers are generally required by
law to withhold from their employees’ income the employees’ shares of Social Security and
Medicare taxes.2 One-half of the calculated tax amount is withheld from the employee’s wages
and the employer pays a matching amount. Self-employed taxpayers must pay the entire amount
of Social Security and Medicare taxes themselves in the form of self-employment taxes
(currently 15.3 percent of self-employment income). Therefore, the classification of workers as
employees or as independent contractors has a significant effect on the tax liabilities of the
workers as well as the employers.
Internal Revenue Service (IRS) research indicates that employers often misclassify workers as
independent contractors for various reasons. They might do so unintentionally because of a lack
of knowledge or because of poor advice received. Some employers might have Section 5303
protection and, as a result, can legally treat workers as independent contractors who would
otherwise be employees. Finally, there are employers who deliberately misclassify workers to
cut costs and to gain a greater competitive edge. These employers avoid paying their share of
employment taxes as well as other expenses such as workers’ compensation, unemployment
insurance, and other benefits. Misclassifying employees as independent contractors and not
incurring the related costs can give these employers a competitive advantage over employers
who treat their workers as employees.



1
  The tax gap is the difference between the amount of tax that taxpayers should pay and the amount that is paid
voluntarily and on time. It is composed of underreporting of tax liabilities on tax returns, underpaying taxes
reported on filed returns, and nonfiling of required tax returns altogether or on time.
2
  Certain members of the clergy are considered to be employees but are subject to the self-employment tax. Certain
State and local government employees covered by qualifying retirement plans are not subject to either Federal
Insurance Contributions Act or self-employment tax.
3
  Section 530 of the Revenue Act of 1978, Pub. L. No. 95-600, 92 Stat. 2763, 2885-86 (current version at Internal
Revenue Code Section 3401 note). This section permits a taxpayer to treat workers as other than employees for
employment tax purposes when certain requirements are met. It also prohibits the IRS from issuing guidance
clarifying the employment status of individuals for purposes of employment taxes.
                                                                                                           Page 1
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed



An employer-employee relationship generally exists when the person for whom the services are
performed has the right to control and direct the individual who performs the services, not only
as to the result, but also as to the details and means by which the result is accomplished. The
IRS has the responsibility to administer this significant and sometimes politically sensitive area
of the tax law.
This review was performed at the IRS Campuses4 in Ogden, Utah; Covington, Kentucky; and
Holtsville, New York, during the period May 2007 through May 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                       While Actions Have Been Taken to Address Worker
                 Misclassification, an Agency-Wide Employment Tax Program and
                                      Better Data Are Needed




                                    Results of Review

The Internal Revenue Service Has Taken and Plans to Take Many
Positive Actions to Address Worker Misclassification
The IRS has dedicated resources to educate taxpayers regarding employee classification as well
as to enforce tax laws related to this issue. The IRS’ efforts to educate employers and workers
on employment tax issues include the following:
    •   The Form SS-8 Worker Status Determination program. This program was established to
        allow a business or worker to request a determination letter from the IRS regarding a
        worker’s Federal employment tax status as an employee or an independent contractor.
        Either the worker or the employer, or both, can submit a Determination of Worker Status
        for Purposes of Federal Employment Taxes and Income Tax Withholding (Form SS-8) to
        request the determination.
    •   Online services and other publications. The IRS has emphasized worker classification
        issues in its Headliner, Fact Sheet, e-News for Tax Professionals, and IRS Newswire
        publications. It has also created pages on its web site, IRS.gov, with links dedicated to
        employment taxes for businesses and independent contractors. Other publications
        include (Circular E), Employer’s Tax Guide (Publication 15); Employer’s Supplemental
        Tax Guide (Publication 15-A); Independent Contractor or Employee… (Publication
        1779); Are You an Employee? (Publication 4445-E); and Do you Qualify for Relief under
        Section 530? (Publication 1976). Each of these publications discusses various aspects of
        employment taxes and worker classification issues.
    •   Uncollected Social Security and Medicare Tax on Wages (Form 8919). In response to a
        previously issued Treasury Inspector General for Tax Administration report,5 the IRS
        created Form 8919 for Section 530 employees6 and misclassified workers to report their
        share of employment taxes. Workers who are employees but are treated as independent
        contractors by their employer can report their income on Form 8919 and pay only their
        half of employment taxes rather than the full 15.3 percent they would pay for
        self-employment tax.


5
  Social Security and Medicare Taxes Are Not Being Properly Assessed on Some Tips and Certain Types of Wage
Income (Reference Number 2007-30-062, dated March 30, 2007).
6
  A Section 530 employee is one who was determined to be an employee by the IRS prior to January 1, 1997, but
whose employer has been granted relief from payment of employment taxes under Section 530 of the Revenue Act
of 1978.
                                                                                                       Page 3
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed



    •    Tax Talk Today7 and presentations to professional associations such as the American Bar
         Association and the American Payroll Association8 on employment taxes and worker
         classification. The IRS also discussed employment tax issues including worker
         classification at its Nationwide 2008 Tax Forums.
Although all of the primary IRS business divisions are involved in the processing, assessment,
collection, and enforcement of employment taxes, the Small Business/
Self-Employed (SB/SE) Division9 is assigned the responsibility for providing leadership on all of
the IRS’ employment tax matters, including the development of programs, policies, and
procedures regarding worker classification. The SB/SE Division Employment Tax function
administers employment tax policy including the enforcement of those policies through worker
classification audits.
The IRS’ other enforcement efforts related to employment taxes and worker classification issues
include:
    •    The Questionable Employment Tax Practices program.10 The program is a collaborative
         effort which seeks to identify employment tax schemes and illegal practices and increase
         voluntary compliance with employment tax rules and regulations. The Questionable
         Employment Tax Practices program consists primarily of Federal-State agreements
         which allow the IRS and State workforce agencies to share and exchange employment
         tax information. Within the past 3 years, the IRS has signed agreements with State
         workforce agencies in 32 States to share employment tax compliance information. About
         90 percent of the information shared between the IRS and the States is related to worker
         classification issues.
    •    The Employment Tax Examination Program is an annual computer extract which
         analyzes Miscellaneous Income (Form 1099-MISC) and Wage and Tax Statement
         (Form W-2) forms filed by employers. The extracted data are analyzed for indications of
         a worker classification issue.
    •    The Classification Settlement Program (CSP). This is an optional program that provides
         some relief from liability associated with worker classification issues and allows


7
  Tax Talk Today is a free, live, monthly interactive web cast aimed at educating tax professionals on the most
contemporary and complex tax issues. It provides tax professionals with the opportunity to interact directly with
representatives of the IRS and practicing professionals on current tax issues.
8
  The American Payroll Association conducts more than 300 seminars each year—anywhere from 1 day to a full
week of seminar training programs. Most of the seminars include instruction on the proper classification of workers
(independent contractor versus employee).
9
  The SB/SE Division services all fully or partially self-employed individuals and corporations and partnerships with
assets of $10 million or less.
10
   Questionable employment tax practices are employment schemes or tax practices which have no basis other than
to evade State and/or Federal employment or unemployment taxes.
                                                                                                             Page 4
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed



         employers to resolve worker classification cases early in the administrative process of an
         audit, provided they agree to begin treating their workers as employees from the point of
         the agreement forward.
     •   The Specialist Referral System allows a revenue agent11 to make an online referral to the
         agent’s manager through the IRS Intranet.
     •   The Service Wide Employment Tax Research System. The IRS plans to implement the
         system in Fiscal Year 2009. The Service Wide Employment Tax Research System is a
         web-based inventory selection and delivery system that will provide a scoring system for
         employment tax returns. Its goal is to increase workload efficiencies and provide a
         standardized method of case selection. It will extract data from existing systems to
         optimize the case selection process of employment tax returns to provide a uniform and
         systematic method of employment tax case selection. It will be used for worker
         classification, nonfiler, and tip cases. The Service Wide Employment Tax Research
         System will enable the IRS to identify patterns of employment tax noncompliance and to
         select the best cases for examination for all business divisions.
IRS interest in this issue is not to reclassify workers from independent contractors to employees.
Rather, it is to ensure that employers are making the proper determination and that workers are
being treated appropriately.
Despite the many positive actions that the IRS has taken and plans to take to address worker
classification issues, more needs to be done.

The Internal Revenue Service Does Not Have an Agency-Wide
Employment Tax Program to Address Worker Classification
IRS business divisions communicate and coordinate with each other regarding employment tax
issues. However, there is no single point of accountability for employment tax below the IRS
Deputy Commissioner level, and there is no agency-wide strategy to coordinate the decision-
making process and efforts among the divisions.
Office of Management and Budget Circular A-12312 states that management is responsible for
establishing and maintaining internal control. The Standards for Internal Control in the Federal
Government13 further states that internal controls should provide reasonable assurance that the
objectives of the agency are being achieved in the following areas: effectiveness and efficiency
of operations, including the use of the entity’s resources; reliability of financial reporting,

11
   A revenue agent is an IRS employee who conducts examinations of individuals, small businesses, corporations,
partnerships, tax-exempt entities, and/or government entities, using accounting, auditing, and investigative skills to
determine compliance with Federal income tax laws.
12
   OMB Circular A-123, Management’s Responsibility for Internal Control (revised December 21, 2004).
13
   Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                               Page 5
                       While Actions Have Been Taken to Address Worker
                 Misclassification, an Agency-Wide Employment Tax Program and
                                      Better Data Are Needed



including reports on budget execution, financial statements, and other reports for internal and
external use; and compliance with applicable laws and regulations.
The IRS has indicated that it is committed to reducing the employment tax gap. An agency-wide
employment tax program is needed to achieve this goal. Prior efforts, including one initiated in
Calendar Year 2003, were not implemented. In the most current initiative, the Employment Tax
function has been developing an agency-wide employment tax program since Calendar Year
2006 to coordinate employment tax-related activities throughout the IRS to reduce redundancy,
improve efficiency, and reduce the employment tax gap. To date, these efforts have resulted in
an agency-wide employment tax program letter and business plan. The business plan includes
collaborative initiatives to address employment tax noncompliance. While all of the affected
business units are involved in these plans and actions, the program has yet to be approved for
agency-wide use and implemented.
Each IRS business division makes its own determination on priorities, develops work plans,
identifies work, and sets goals and objectives based on issues and factors unique to taxpayers
within the particular division. The processes vary significantly between divisions, and there is
limited coordination among the divisions to ensure that the employment tax program is
administered in a consistent, efficient, and effective manner.
For example:
     •   Business divisions lack a uniform method of tracking worker classification field audits
         and results. The SB/SE Division tracks both employment tax audits and the subset of
         worker classification audits. The Large and Mid-Size Business Division14 has the
         capability of tracking worker classification issues through its Issue Management System,
         allowing it to track issues and employment tax audits. However, it does not typically
         track worker classification audits, reportedly due to the recurring nature of many of these
         audits. The Tax Exempt and Government Entities Division15 only tracks employment tax
         audits. Even the types of cases that are classified as worker classification cases sometime
         differ among the divisions.
     •   Procedures regarding the monitoring and followup of CSP Agreements vary by business
         division. The SB/SE Division has centralized its CSP Agreement monitoring and
         follow-up activities. The Large and Mid-Size Business Division maintains copies of its
         CSP Agreements in a centralized location, but monitoring and follow-up activities are
         decentralized. CSP Agreements within the Tax Exempt and Government Entities
         Division are decentralized. Due to the relative number of CSP Agreements within each


14
   The Large and Mid-Size Business Division services corporations and partnerships with assets greater than
$10 million.
15
   The Tax Exempt and Government Entities Division services a large and unique economic sector of organizations,
which include pension plans, exempt organizations, government entities, and tax-exempt bond issuers.
                                                                                                         Page 6
                     While Actions Have Been Taken to Address Worker
               Misclassification, an Agency-Wide Employment Tax Program and
                                    Better Data Are Needed



       of the divisions, the Large and Mid-Size Business and the Tax Exempt and Government
       Entities Divisions might choose to keep the monitoring and follow-up activities of their
       CSP Agreements decentralized. However, all of the divisions could benefit from sharing
       best practices, particularly in what to maintain in the followup case files.
   •   Each of the business divisions maintains a database of the CSP Agreements within the
       division, but no overall database is kept. Having one combined database of all CSP
       Agreements would be beneficial, particularly when the Service Wide Employment Tax
       Research System is implemented.
Without an approved agency-wide employment tax program, there is no cohesive and consistent
approach for determining which employment tax issues are the most critical; which programs or
initiatives have the greatest potential to address these issues to improve filing, reporting, and
payment compliance; which programs are most effective in bringing about improvements in
compliance at the lowest cost; and whether the programs are reducing the employment tax gap.
The Questionable Employment Tax Practices program and the Form SS-8 Worker Status
Determination program previously discussed are both examples of the good that can be achieved
by a high level of coordination of resources. The Form SS-8 Worker Status Determination
program is a good example of a centralized program that functions well and provides data to all
of the business divisions. Similarly, the Questionable Employment Tax Practices program is a
good example of coordination between the IRS and State workforce agencies.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
develop and implement an agency-wide employment tax program which specifically addresses
the issue of worker classification to improve coordination among the business divisions, improve
compliance, and reduce the tax gap.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Specialty Programs, Small Business/Self-Employed Division, will coordinate
       an effort with all business divisions, the Criminal Investigation Division, and the Office
       of Chief Counsel to develop an agency-wide employment tax plan that addresses worker
       classification along with other employment tax issues.




                                                                                           Page 7
                       While Actions Have Been Taken to Address Worker
                 Misclassification, an Agency-Wide Employment Tax Program and
                                      Better Data Are Needed



The Internal Revenue Service Has Limited Data Regarding the Overall
Impact of Worker Misclassification
The IRS’ most recent estimate16 of the tax gap is approximately $345 billion. The portion of that
figure attributed to the underreporting of employment tax is estimated to be $54 billion. Federal
Insurance Contributions Act and Federal Unemployment Tax Act taxes were estimated to be
about $15 billion of the $54 billion. However, the $15 billion estimate is based on Tax Year
1984 data that has not been recently updated.
The IRS also estimated17 that approximately 15 percent of employers (756,000 of 5.15 million)
misclassified 3.4 million workers as independent contractors in Tax Year 1984. The estimated
tax loss was $1.6 billion in Social Security tax, unemployment tax, and income tax that should
have been withheld from wages. This was the last comprehensive estimate of the impact of
worker misclassification on tax revenues and the tax gap. In a report issued in July 2006,18 the
Government Accountability Office adjusted the $1.6 billion estimate to $2.72 billion in
inflation-adjusted 2006 dollars.
An agency-wide employment tax program, as recommended in the previous section, which
addresses worker classification is crucial to developing current data on the impact of worker
misclassification on the tax gap. The Government Performance and Results Act of 199319
requires that plans have general goals and objectives, including outcome-related goals and
objectives. Under the Act, performance measurement is the ongoing measuring and reporting of
program accomplishments. The IRS needs to update its measurement of the underreporting
employment tax gap, of which worker classification is a major segment.
In a prior report,20 we reported that the reliability of tax gap projections is affected by the age,
completeness, and accuracy of the data used. We have also previously reported21 that the IRS did

16
   The National Research Program was a comprehensive compliance study of Tax Year 2001 individual income tax
returns that was completed in Calendar Year 2006. It estimated the overall gross tax gap for Tax Year 2001 to be
$345 billion, including $285 billion from underreporting, $33 billion from underpaying, and $27 billion from
nonfiling.
17
   The Strategic Initiative on Withholding Noncompliance Study was designed to determine the extent of
noncompliance in the withholding area. It involved thorough examinations of Tax Year 1984 employment tax
returns of 3,331 employers and follow-up employee surveys of certain individuals identified in the employer
surveys. The study addressed various aspects of withholding compliance, including the classification of workers as
independent contractors or employees.
18
   Employment Arrangements: Improved Outreach Could Help Ensure Proper Worker Classification (GAO-06-656,
dated July 11, 2006).
19
   Pub. L. No. 103-62,107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
20
   Some Concerns Remain About the Overall Confidence That Can Be Placed in Internal Revenue Service Tax Gap
Projections (Reference Number 2006-50-077, dated April 2006).
21
   Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting (Reference Number
2005-30-126, dated August 2005).
                                                                                                          Page 8
                      While Actions Have Been Taken to Address Worker
                Misclassification, an Agency-Wide Employment Tax Program and
                                     Better Data Are Needed



not know the current level of reporting compliance because the current employment tax
underreporting data for employment tax returns were unreliable and had a significant adverse
impact on developing an effective overall employment tax strategy. The Government
Accountability Office issued a report22 with similar findings. The IRS agreed with the findings
and recommendations in our report and the Government Accountability Office report. In
addition, the Department of the Treasury issued a report23 outlining a comprehensive strategy for
addressing the tax gap. The IRS then issued a report24 that built upon the strategy outlined by the
Department of the Treasury and provided details on the steps it planned to take to increase
voluntary compliance and reduce the tax gap.
The IRS is considering new research projects in several areas, including a National Research
Program employment tax reporting compliance study, to update and provide more
comprehensive data on the magnitude and sources of noncompliance. This research is critical in
helping the IRS understand behavior, develop strategies, and measure progress. The National
Research Program has been approved but has not yet been implemented.
The SB/SE Division Employment Tax function conducted a preliminary analysis of Fiscal Year
2006 operational and program data to determine whether the $15 billion figure was still accurate.
Initial results indicated the underreporting tax gap attributable to the Federal Insurance
Contributions Act and Federal Unemployment Tax Act portion of employment taxes is likely to
be markedly higher than the most recent tax gap estimates suggest.
Misclassified workers are a significant portion of the employment tax gap. However, because
the IRS only has limited data on the impact of worker misclassification on the tax gap, it is
unable to determine the overall effectiveness of its actions to address this issue. Periodic
measurements directed at the worker classification issue should be taken to evaluate the
effectiveness of programs and to determine progress.

Recommendation
Recommendation 2: The Deputy Commissioner for Services and Enforcement should
consider conducting a formal National Research Program reporting compliance study for
employment taxes that includes measuring the impact of worker misclassification on the tax gap.


22
   Tax Compliance: Better Compliance Data and Long-term Goals Would Support a More Strategic IRS Approach
to Reducing the Tax Gap (GAO-05-753, dated July 18, 2005).
23
   A Comprehensive Strategy for Reducing the Tax Gap (dated September 26, 2006).
24
   Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance (dated August 2, 2007).




                                                                                                   Page 9
             While Actions Have Been Taken to Address Worker
       Misclassification, an Agency-Wide Employment Tax Program and
                            Better Data Are Needed



Management’s Response: IRS management agreed with the recommendation. The
Director, Specialty Programs, Small Business/Self-Employed Division, will work with
the Research function to coordinate a study that addresses worker classification and other
employment tax issues. They have already started the planning for the effort, which will
begin early in Fiscal Year 2009.




                                                                                  Page 10
                        While Actions Have Been Taken to Address Worker
                  Misclassification, an Agency-Wide Employment Tax Program and
                                       Better Data Are Needed



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of actions the IRS had
taken and planned to take to address the misclassification of employees as independent
contractors. To accomplish this objective, we:
I.       Interviewed IRS management to identify the major issues involved; the actions,
         programs, and initiatives taken and planned to address those issues; and the financial
         impact that worker misclassification has on tax administration.
II.      Conducted research to identify the major issues involved and the financial impact that
         worker misclassification has on tax administration by identifying, reviewing, and
         evaluating relevant material from the following sources:
         A. IRS publications, including web site information.
         B. IRS studies, including National Research Program data.
         C. Treasury Inspector General for Tax Administration audit reports.
         D. Government Accountability Office audit reports.
         E. Department of the Treasury reports.
         F. Congressional legislation hearings and testimony including any related to the
            modification of Section 530.1
III.     Identified the actions taken to educate employers and workers regarding employee
         classification and to enforce employment tax and worker classification laws.




1
 Section 530 of the Revenue Act of 1978, Pub. L. No. 95-600, 92 Stat. 2763, 2885-86 (current version at Internal
Revenue Code Section 3401 note) provides businesses with relief from Federal employment tax obligations if
certain requirements are met. In general, it allows an employer to treat a worker as an independent contractor for
employment tax purposes regardless of the individual’s actual status under the common-law standard.
                                                                                                           Page 11
                    While Actions Have Been Taken to Address Worker
              Misclassification, an Agency-Wide Employment Tax Program and
                                   Better Data Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Roy E. Thompson, Lead Auditor
L. Jeff Anderson, Senior Auditor
W. George Burleigh, Senior Auditor




                                                                                    Page 12
                   While Actions Have Been Taken to Address Worker
             Misclassification, an Agency-Wide Employment Tax Program and
                                  Better Data Are Needed



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief, Employment Tax Operations, Small Business/Self-Employed Division SE:S:SP:ET:C
Program Manager, Employment Tax Policy, Small Business/Self-Employed Division
SE:S:SP:ET:TP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities SE:T




                                                                                Page 13
         While Actions Have Been Taken to Address Worker
   Misclassification, an Agency-Wide Employment Tax Program and
                        Better Data Are Needed



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 14
      While Actions Have Been Taken to Address Worker
Misclassification, an Agency-Wide Employment Tax Program and
                     Better Data Are Needed




                                                      Page 15
      While Actions Have Been Taken to Address Worker
Misclassification, an Agency-Wide Employment Tax Program and
                     Better Data Are Needed




                                                      Page 16
